Executive Report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing ServicesCommunity Policing to Combat Domestic ViolenceGrant to the Madison Police DepartmentMadison, Wisconsin
GR-50-00-008January 10, 2000Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of the Community Policing to Combat Domestic Violence Grant awarded by the U.S. Department of Justice, Office of Community Oriented Policing Services, to the Madison Police Department in Madison, Wisconsin.  The grant was awarded in the amount of $209,527 for the period of June 1, 1996 through May 31, 1997, with an extension through February 28, 1998.  The purpose of the grant was to provide law enforcement agencies with the means to execute community policing strategies to combat domestic violence.

In brief, our audit revealed that the grantee successfully achieved its grant objectives.  However, we found:


The grantee received reimbursement for unallowable and unsupported costs totaling $61,864.
	At the close of the grant, $35,851 remained unexpended and could be put to better use if the funds were deobligated.
	The Madison Police Department was not adequately monitoring the grant expenditures made by the subrecipient entity and did not maintain adequate inventory records for equipment purchased with grant funds. 

The details of our audit are contained in the Findings and Recommendations section of this report.  Our audit scope and methodology are described in Appendix I.